Appendix

Case: 20-50163, 03/23/2021, ID: 12050423, DktEntry: 24-1, Page 1 of 3

FILED

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

MAR 23 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

20-50163

D.C. No. 3:17-cr-01287-LAB-1
MEMORANDUM*

JORGE GOMEZ-GOMEZ,
Defendant-Appellant.
Appeal from the United States District Court
for the Southern District of California
Larry A. Burns, District Judge, Presiding
Submitted March 16, 2021**
Before:

GRABER, R. NELSON, and HUNSAKER, Circuit Judges.

Jorge Gomez-Gomez appeals from the district court’s judgment and
challenges the 99-month sentence and one condition of supervised release imposed
upon remand following his jury-trial conviction for attempted reentry of a removed
alien, in violation of 8 U.S.C. § 1326. We have jurisdiction under 28 U.S.C.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Pet. App. 1a

Case: 20-50163, 03/23/2021, ID: 12050423, DktEntry: 24-1, Page 2 of 3

§ 1291, and we affirm.
Gomez-Gomez first contends that the district court erred procedurally by
insufficiently explaining the sentence. We review for plain error, see United States
v. Valencia-Barragan, 608 F.3d 1103, 1108 (9th Cir. 2010), and conclude that
there is none. The district court considered and rejected Gomez-Gomez’s
arguments for a shorter sentence, including the circumstances of the ongoing
COVID-19 pandemic. And it explained in detail how Gomez-Gomez’s
immigration and criminal history justified the above-Guidelines sentence.
Gomez-Gomez also contends that the sentence is substantively
unreasonable. The district court did not abuse its discretion. See Gall v. United
States, 552 U.S. 38, 51 (2007). The sentence is substantively reasonable in light of
the 18 U.S.C. § 3553(a) sentencing factors and the totality of the circumstances.
See Gall, 552 U.S. at 51.
Finally, Gomez-Gomez contends that the district court’s imposition in the
written judgment of the standard supervised release condition that Gomez-Gomez
not commit any federal, state, or local crime conflicts with its oral pronouncement
of the condition. We disagree. Read in context, the court’s oral pronouncement
was a shorthand description of the condition contained in the written judgment. To
the extent the district court’s oral pronouncement was ambiguous, the later written
judgment clarified the ambiguity. See United States v. Garcia, 37 F.3d 1359, 1368

2

20-50163

Pet. App. 2a

Case: 20-50163, 03/23/2021, ID: 12050423, DktEntry: 24-1, Page 3 of 3

(9th Cir. 1994), abrogated on other grounds by United States v. Jackson, 167 F.3d
1280 (9th Cir. 1999).
AFFIRMED.

3

20-50163

Pet. App. 3a

